<html>
<title> - LIVING IN FEAR: THE CONTINUED HUMAN RIGHTS ABUSES IN CASTRO'S CUBA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   LIVING IN FEAR: THE CONTINUED HUMAN RIGHTS ABUSES IN CASTRO'S CUBA

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2004

                               __________

                           Serial No. 108-202

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                 U.S. GOVERNMENT PRINTING OFFICE

96-090                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2004....................................     1
Statement of:
    Kozak, Michael, Principal Deputy Assistant Secretary, Bureau 
      of Democracy, Human Rights and Labor, U.S. Department of 
      State; Deputy Assistant Secretary Dan Fisk, Department of 
      State; David Mutchler, Senior Advisor on Cuba, U.S. Agency 
      for International Development..............................    19
    Suchlicki, Jamie, director, Cuban Transition Project, 
      University of Miami; Omar Lopez Montenegro, executive 
      director, Cuban American National Foundation; Eric Olson, 
      advocacy director, Americas, Amnesty International; and 
      Miguel Reyes, stepson of Raul Rivero, a poet imprisoned in 
      the March 2003 dissident crackdown.........................    51
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     5
    Franco, Adolfo A., Assitant Administrator for Latin America 
      and Caribbean, U.S. Agency for International Development, 
      prepared statement of......................................    41
    Kozak, Michael, Principal Deputy Assistant Secretary, Bureau 
      of Democracy, Human Rights and Labor, U.S. Department of 
      State, prepared statement of...............................    24
    Montenegro, Omar Lopez, executive director, Cuban American 
      National Foundation, prepared statement of.................    64
    Olson, Eric, advocacy director, Americas, Amnesty 
      International, prepared statement of.......................    69
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, information concerning Foundation for 
      Human Rights in Cuba.......................................    13
    Suchlicki, Jamie, director, Cuban Transition Project, 
      University of Miami, prepared statement of.................    54


   LIVING IN FEAR: THE CONTINUED HUMAN RIGHTS ABUSES IN CASTRO'S CUBA

                              ----------                              


                        WEDNESDAY, JUNE 16, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives: Burton, Ros-Lehtinen, Cummings 
and Watson.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Richard 
Butcher, minority professional staff member; and Cecelia 
Morton, minority office manager.
    Mr. Burton. Good morning. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record. Without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record and without objection, so ordered.
    In the event of other Members of Congress joining us at 
today's hearing who are not members of the committee, I ask 
unanimous consent that they be permitted to serve as a member 
of the subcommittee for the day. Without objection, so ordered.
    The subcommittee is convening today to examine the 
atrocious human rights violations Cubans continue to suffer at 
the hands of the oppressive, totalitarian, communist regime led 
by Fidel Castro. We are also going to discuss what the proper 
current U.S. response should be in further supporting peace 
advocates and promoting the development of democracy in the 
island nation of Cuba.
    An individual's freedom should be his or her most basic 
human right. Throughout Castro's 45 years of tyrannical regime, 
he has continuously arrested and detained people who speak 
openly about their different governmental views. Even under the 
most repressive of conditions, many Cubans who live under 
Castro's iron fist consistently demonstrate their resilience 
and continue to fight against the numerous injustices they are 
forced to endure.
    Since Castro assumed control of Cuba on January 1, 1959, 
fundamental human rights and basic living conditions have 
deteriorated continuously and tremendously. Most Cuban people 
live every day in fear of their government, thousands of whom 
risk their lives every year to flee the communist regime by any 
means necessary, even attempting to brave the hazardous 90-mile 
crossing between the United States and Cuba on makeshift rafts. 
Recent events in Cuba have further opened the eyes of the world 
community to the true evil nature of the Castro regime. Over 
the past 2 years, Fidel Castro has created a constitutional 
amendment permanently making socialism the official form of 
state government as well as posturing himself to remain in 
power until he is forcibly removed or deceased.
    In addition to these totalitarian mandates, he staged the 
most sweeping crackdown on peaceful advocates for change in the 
history of Cuba. On March 18, 2003, Fidel Castro ordered the 
arrest of many writers, poets, librarians and pro-democracy 
advocates in a large scale operation to stifle any movement 
against his regime. Subsequently, some of the targeted 
individuals were released but 75 remain in jail to be tried for 
their ``crimes'' against the country, citing Article 91 of 
Cuba's penal code that states, ``Anyone who in the interest of 
a foreign state commits an act with the objective of damaging 
the independence or territorial integrity of the State of 
Cuba.'' The Cuban Government accused dissidents of engaging in 
activities that could be perceived as damaging to Cuba's 
internal order and/or perceived as encouraging the U.S.' 
embargo against their country.
    Since then, the United States, along with many freedom 
loving nations and international governing bodies, has taken 
action in response to the harsh imprisonments of political 
dissidents in Cuba. The United States has imposed both stricter 
sanctions against Cuba as well as encouraged other world 
communities to place further resolutions and sanctions on Cuba.
    On April 15, 2004, the United Nations Human Rights 
Commission convened and voted on the U.S.-backed resolution 
stating that Cuba ``should refrain from adopting measures which 
could jeopardize the fundamental rights'' of its citizens. 
Other international governing bodies such as the European Union 
have taken action against Cuba in light of the unjust March 
2003 mass incarceration.
    Last year, the European Union's member states imposed stern 
measures against Cuba including suspending high level 
diplomatic visits, reviewing the value of cultural and other 
exchanges and inviting dissident activists to diplomatic events 
as a clear call to Fidel Castro to end the dissidents' 
imprisonment. The actions of the Cuban Government by way of 
Fidel Castro's orders are an affront to Articles 9 and 19 of 
the United Nations Universal Declaration of Human Rights which 
declared that, ``Everyone has the right to freedom of opinion 
and expression'' and that ``no one shall be subjected to 
arbitrary arrest, detention or exile.'' It is particularly 
interesting that before Fidel Castro, Cuba was a signatory in 
the adoption of this declaration in 1948.
    The list of Cuban detainees published by Amnesty 
International in their Essential Measures Brief of 2003 
revealed some striking information. Among the detained are 23 
people over the age of 50 as well as 5 others who are more than 
60 years of age. I wonder what dissenting activities they were 
engaging in that would earn them a collective 1,242 years in 
prison. These peaceful, pro-democracy advocates who Mr. Castro 
likes to call dissidents or ``enemies of the revolution'' were 
convicted for activities such as attending an assembly to 
promote civil society, possessing membership in the Committee 
on Cuban Human Rights or publishing documents to be 
disseminated abroad that represent a clear means of 
implementing the measures established in Article 4 of the 
Libertad Act also known as the Helms-Burton Act, which would 
increase the U.S.' sanctions and blockades against Cuba.
    I believe that although Cuba's transition from the Castro 
regime to a democratic society with a free economy and basic 
human rights will be a challenging process, it is an attainable 
endeavor and it is inevitable that it will happen. We can 
improve human rights and freedom within Cuba by fostering 
dramatic reform of the Cuban peoples' values. The U.S. 
Government, along with non-governmental organizations, has been 
working toward a free and democratic Cuba. In October 2003, 
President George Bush announced the creation of the Commission 
for Assistance to a Free Cuba. After several months of 
meetings, the Commission published their initial findings.
    The report published in May 2004 gives a six fold strategy 
for Cuba's liberation and development including the empowerment 
of Cuban civil society, the denial of resources to the Cuban 
dictatorship and the encouragement of international diplomatic 
efforts to support Cuban civil society and challenge Castro's 
regime. To better address these issues, the subcommittee has 
the pleasure of receiving testimony from the Honorable Michael 
Kozak, Principal Deputy Assistant Secretary, Bureau or 
Democracy, Human Rights and Labor, Department of State, to 
further discuss the new U.S. policy on Cuba. Ambassador Kozak 
has had the opportunity to live in Cuba and as such, is able to 
provide us with a personal account of the current state of 
affairs there.
    In addition, the subcommittee will hear from the Honorable 
David Mutchler, Senior Advisor on Cuba, United States Agency 
for International Development. He will discuss the current 
Federal Government interaction and monitoring of human rights 
violations in Cuba.
    NGO's have played an instrumental role in gathering 
information that has been useful in learning more about this 
closed country's human rights violations. To give further 
details on these most important issues, the subcommittee will 
also receive testimony from Eric Olson, advocacy director for 
the Americas with Amnesty International and Omar Lopez 
Montenegro from the Cuban American National Foundation, who 
have been great friends for a long time. These gentlemen will 
shed new light upon and explain in greater detail the severity 
and specifics of human rights violations in present day Cuba.
    Because Cuba is one of the last remaining totalitarian 
communist regimes in modern day society, many academics have 
researched the current human rights situation and itemized 
methods by which democracy can be obtained within Cuba. At the 
forefront of this endeavor is the Cuba Transition Project at 
the University of Miami. Today, the subcommittee also has the 
honor of hearing from Jamie Suchlicki, the director of this 
program. Mr. Suchlicki will speak on the implications and 
strategies involved in ushering in a representative Government 
for Cuba.
    In 2003, the United Nations Educational Scientific and 
Cultural Organization awarded Raul Rivero, a journalist and 
poet imprisoned in the crackdown the coveted Guillermo Cano 
World Press Freedom Prize after his arrest. The subcommittee 
has the pleasure of receiving testimony from Mr. Rivero's 
stepson, Miguel Reyes, who will give us his personal 
perspective on the impact the dissident imprisonment had on 
Cuba nationals and their families.
    I want to thank all of you for being here today and coming 
to speak on these ever important human rights issues. In 
addition, I look forward to hearing about the Bush 
administration's efforts to help Cubans free themselves from 
the shackles of Castro's brutal regime so they may finally take 
their rightful place as a bastion of liberty and democracy in 
our hemisphere.
    We have had these hearings for a long, long time and I hope 
and pray and believe that I will live long enough to have a 
Margarita with some of my friends in a free Cuba.
    With that, we will now recognize my good friend and a great 
patriot, Ms. Ileana Ros-Lehtinen.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 96090.001
    
    [GRAPHIC] [TIFF OMITTED] 96090.002
    
    [GRAPHIC] [TIFF OMITTED] 96090.003
    
    [GRAPHIC] [TIFF OMITTED] 96090.004
    
    [GRAPHIC] [TIFF OMITTED] 96090.005
    
    [GRAPHIC] [TIFF OMITTED] 96090.006
    
    Ms. Ros-Lehtinen. I will drink to that. Thank you, Chairman 
Burton.
    Thank you for holding this hearing. I would like to express 
my heartfelt gratitude for your unwavering commitment to the 
people of Cuba. We thank you.
    We have come here today once again as we have throughout 
the years to shine the light of truth on the atrocious human 
rights record in Cuba. Chairman Burton has been a true leader 
and advocate for advancing human rights in Cuba for the many 
years he has been in Congress. I am so proud to be a member of 
his committee each and every time he does this.
    I look forward to hearing from our guests who have labored 
over the issue of how to deal with Castro's atrocious actions 
and how freedom-loving nations should respond to those actions 
and how to help the Cuban people because I think the U.S.-Cuba 
policy always has that as its primary goal, how to help the 
Cuban people in spite of the propaganda and the lies that 
Castro puts out.
    I would like to thank my good friend, Jamie Suchlicki, for 
his dedication as the director of the Cuba Transition Project 
and I would also like to express my thanks to Ambassador 
Michael Kozak who has been a good friend for many, many years; 
David Mutchler of U.S. AID, who is always very helpful in 
making sure that good organizations which can help the Cuban 
people receive the necessary aid; and I appreciate the work of 
Dan Fisk from the State Department who has been the leader in 
making sure we can put forth regulations that hurt the Castro 
regime and help the Cuban people. He has always had that as his 
goal and we thank him so much for his leadership.
    I am so pleased, Mr. Chairman, that you have also invited 
Omar Lopez Montenegro of the Foundation for Human Rights in 
Cuba and Miguel Reyes who is the stepson of Raul Rivero, a poet 
imprisoned in the crackdown of March 2003. Raul Rivero was just 
a writer, had no political tie-ins whatsoever other than 
speaking on behalf of freedom, human rights, and for that he 
has gone to jail. Let us see when he will be released and we 
hope it is soon.
    Omar, who heads this wonderful organization called 
Foundation for Human Rights in Cuba, put out these pamphlets. 
This one shows Dr. Elias Biscet who is still languishing in 
jail in very difficult conditions. It says he shouts, ``Long 
live human rights,'' before he is forcefully led away in a 
police car, and below, agents of the National Revolutionary 
Police kick a demonstrator during the popular revolt of August 
1994. Another publication of his has Hortensia Graceful, 
displays a picture of her son, a political prisoner, Graspo, 
and below are members of the Rapid Response Brigades armed with 
sticks and steel bars ready to repress peaceful demonstrators 
against the regime. The sign on the wall reads, ``Here you can 
see socialism.'' Well, you sure can. Another publication is 
Cuba, Enemy of the Press and it quotes Cuba world press freedom 
index from Reporters Without Borders and it says, ``Cuba second 
from last, just ahead of North Korea, is today the world's 
largest prison for journalists.''
    So, we have brave men and women all across Cuba who have 
endured appalling human rights abuses throughout Castro's 
repression. Even as we meet here today as we have pointed out, 
courageous advocates suffer in jail for speaking their minds 
and advocating for freedom and liberty. Brave Cubans such as 
Marta Beatriz Roque, an independent economist, a leading pro-
democracy advocate enduring a harsh prison sentence of 20 years 
and Marta Beatriz had previously spent 3 years for publishing--
along with three other colleagues--a paper calling for 
democratic reforms. That is a crime in Cuba. The list of names 
is so long as the daunting reality of what the dictatorship has 
done sinks into our consciousness. Every day more and more 
opposition leaders are sentenced to jail, languishing in these 
terrible conditions. The conditions are bad in Cuba, conditions 
outside the jail are bad and you can imagine what it is like 
for a political prisoner inside a Cuban gulag. They are 
subjected to the most inhumane and degrading treatment. Their 
bodies are weak, they are rapidly deteriorating but their 
courage, their spirit, their commitment to free Cuba from its 
enslavement is stronger than ever.
    The purpose of your hearing today, Mr. Burton, is to 
address their plight, to find ways to empower and support 
forces in order to precipitate a transition to a free 
democratic rule in Cuba. As we all know, last October President 
Bush inaugurated the Commission for Assistance to a Free Cuba 
and this Commission has dealt head on with the difficult 
problems engendered by a terrorist regime that has cowardly 
plundered the island of Cuba of its most valuable asset, 
freedom.
    This Congress plays a pivotal role in supporting such 
efforts. Critical among congressional tools is the one co-
authored by our chairman, the Libertad Act, the Helms-Burton 
Act, a bill that allows our Government to address the lingering 
pain of the Cuban people. We must ensure that all provisions of 
the Libertad Act are fully enforced to bring about the end of 
the Castro tyranny and the beginning of liberty, libertad for 
the Cuban people, because indifference breeds evil, 
indifference is the enemy of freedom, indifference helps cloak 
the deplorable actions of tyrants and we should not be 
indifferent to the plight of our fellow Cuban brothers and 
sisters and we should seriously take a look at what our 
Government can and should do to promote freedom in Cuba.
    For that, we thank President Bush for his leadership and 
the regulations that he has put forth that are going to ensure 
that the money Castro needs to stay afloat will not get to him 
as readily as it has in the past. We are going to continue to 
work here in Congress on behalf of not only Cubans who suffer 
at the hands of a cowardly dictator but for all people who are 
prosecuted for their beliefs and faith in the wonders of 
liberty.
    We want to thank the chairman for this hearing. I also want 
to congratulate Eric Olson for Amnesty International. I always 
like to point out that my daughter, Amanda, was the chapter 
president of her school of Amnesty International. So I get 
lobbied right at home on behalf of human rights.
    Thank you, Mr. Chairman. I thank you for this hearing.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 96090.007
    
    [GRAPHIC] [TIFF OMITTED] 96090.008
    
    [GRAPHIC] [TIFF OMITTED] 96090.009
    
    [GRAPHIC] [TIFF OMITTED] 96090.010
    
    [GRAPHIC] [TIFF OMITTED] 96090.011
    
    [GRAPHIC] [TIFF OMITTED] 96090.012
    
    Mr. Burton. Thank you, Ileana.
    With the war going on in Iraq and the world war against 
terrorism, there hasn't been a lot of media focus on Cuba and 
the human rights atrocities that take place down there but I 
can assure you that there are a lot of Members in Congress who 
will continue to focus attention on this until we get some 
positive change down there.
    Our first panel consists of the Honorable Michael Kozak, 
Principal Deputy Assistant Secretary, Bureau of Democracy, 
Human Rights and Labor, U.S. Department of State and Dan Fisk, 
Deputy Assitant Secretary for the Department of State. We also 
have the Honorable David Mutchler, Senior Advisor on Cuba, U.S. 
Agency for International Development.
    [Witnesses sworn.]
    Mr. Burton. Let us start with Principal Deputy Assistant 
Secretary Kozak.

    STATEMENTS OF MICHAEL KOZAK, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. 
   DEPARTMENT OF STATE; DEPUTY ASSISTANT SECRETARY DAN FISK, 
 DEPARTMENT OF STATE; DAVID MUTCHLER, SENIOR ADVISOR ON CUBA, 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Kozak. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify on the human rights 
situation in Cuba.
    It has been more than a year since the Cuban Government 
arrested 75 individuals working peacefully for democratic 
change. The committee's continuing interest in the situation in 
Cuba is both well timed and welcome. It affords us an 
opportunity to show our support for the growing demand by Cuban 
citizens themselves for the blessings of self determination and 
democracy.
    The Castro Government as you noted has long waged war on 
the basic human rights of its people. It controls all aspects 
of daily life through an elaborate and pervasive system of 
undercover agents, informers and neighborhood committees 
working to detect and suppress dissent and impose ideological 
conformity. Spouses are encouraged to report on each other and 
children on their parents. Independent voices have been 
arrested on charges as vague as dangerousness or as clearly 
political as disrespect for authority.
    Dissidents are routinely and falsely labeled as foreign 
spies, mercenaries and agents of the United States. Access to 
information is tightly controlled, including access to the 
Internet and publications such as the Boston Globe are labeled 
enemy propaganda, the possession of which is a criminal 
offense.
    The 75 arrested in March 2003 are serving sentences 
averaging 20 years each for subversive activities such as 
association with international human rights and humanitarian 
NGO's. Omar Rodriguez Saludes was sentenced to 27 years for 
disseminating a photograph of Cuban poverty. Raul Rivero 
received 20 years for unspecified subversive activities. Owning 
a chair that a U.S. diplomat once sat in was cited as evidence 
against Rivero to justify this charge.
    Conditions of incarceration for these prisoners remain 
harsh. Many of the older detainees suffer from increasing poor 
health. My friend, Marta Beatriz Roque spent 3\1/2\ years in 
prison in the late 1990's for the crime of peaceful sedition. 
This crime is defined as anything that perturbs the socialist 
order. In Marta's case that involved taking the Communist Party 
up on its request for public comments on a draft 5 year plan. 
Marta was out for 4 years and then returned to jail with a 20 
year sentence last year. Her health has been poor throughout 
her ordeals and she remains in a military hospital.
    Oscar Espinosa Chepe has been returned to a very small 
shared cell after an extended hospitalization. Raul Rivero, 
whom I was honored to meet with on many occasions during my 
years in Cuba, earlier this year was awarded the UNESCO 
Guillermo Cano World Press Freedom Award as you mentioned. 
However, this accomplished poet and journalist was not able to 
pick up his prize and enjoy what should have been one of the 
highlights of his professional career. He too is serving a 20 
year sentence in a Cuban jail.
    Dr. Oscar Elias Biscet has worked tirelessly to put Dr. 
Martin Luther King's philosophy of nonviolence into practice. I 
visited him in 1999 when he was on a 40-day fast, 1 day for 
each year of the revolution at that point. Dr. Biscet was 
arrested in 2002 for attempting to teach others about 
international human rights practices. Three other people who 
had been arrested with Dr. Biscet were convicted in May of this 
year for the crime of studying the Universal Declaration of 
Human Rights at a private home in Havana.
    I would note I was in Havana on the 50th anniversary of the 
signature of the Universal Declaration. The Cuban authorities 
made a big deal out of that, of what a big day that was. At the 
same time, they were arresting people for having possession of 
the Universal Declaration.
    Unfortunately, such flagrant abuse of human rights has not 
been limited to the group of 75. Francisco Chaviano, an 
advocate of peaceful democratic reforms, was sentenced in 1994 
to 15 years in prison for revealing that his organization had 
been infiltrated by a government agent.
    Many of these prisoners of conscience, falsely accused, 
summarily tried and sentence to long terms in prison, are 
subjected to treatment usually reserved for the most violent 
criminal offenders. Most are allowed to see their families only 
briefly once every 3 months. For many the only real hope of 
release is to accept exile from the country for which they have 
sacrificed so much. Small wonder then if families of political 
prisoners and those other men and women dedicated to peaceful 
change who are outside prison walls live in justifiable fear of 
imminent arrest.
    Despite this very real danger, Cubans are losing their fear 
of the dying regime and are demanding a role in building their 
own democratic future. An authentically independent civil 
society, the building blocks of real democracy, is developing 
before our eyes. The Varela Project is a peaceful call for a 
national referendum on political and economic reforms in Cuba 
that seeks to take advantage of a clause in the Castro 
constitution that requires the national assembly to consider a 
referendum upon petition of 10,000 citizens. The regime 
obviously never thought such a provision could be used against 
it, but it happened. Over 11,000 signatures were collected from 
ordinary Cuban citizens in 2002 and presented to the national 
assembly. This showed incredible courage on the part of those 
who signed and registered their identification numbers. The 
response from the regime was to arrest over 20 of the 
organizers and sentence them to long prison terms.
    Instead of capitulating to this pressure, civil society 
leader, Oswaldo Paya and his colleagues reconstituted their 
effort and collected and delivered an additional 14,000 
signatures. These thousands of Cuban citizens cannot be 
dismissed by the government as insignificant, minuscule groups 
of misfits.
    Vladimiro Roca, the son of one of the founders of the Cuban 
Communist Party, was jailed along with Marta Beatriz Roque, 
Felix Bonne, and Rene Gomez Manzano in 1997. Vladimiro himself 
did over 5 years in prison yet continues his work. We admire 
and applaud these valiant and principled efforts to promote 
peaceful and positive change in Cuba despite active hostility 
from the Castro Government and we welcome the growing optimism 
in Cuba that the end of the dictatorship is near.
    A peaceful, orderly transition in Cuba is not only right, 
it serves U.S. interest in the stability of our own region but 
what in such a hostile environment can the United States really 
do to support the dreams of these independent defenders of 
fundamental freedoms and liberties and to promote a free and 
prosperous Cuba? When the Cuban Government digs tunnels and 
puts its army and people on a war footing in response to non-
existent U.S. invasion threats and hunts imaginary spies in a 
real but peaceful opposition, when principled expressions of 
concern by the European Union, Honduras, Peru, Mexico and other 
democratic governments result in strident denunciations and 
retaliatory threats and insults from the Cuban Government, when 
the regime works aggressively to limit and redirect the flow of 
humanitarian assistance and information, how can we or anyone 
in the international community extend a helping hand to the 
beleaguered people of Cuba?
    It isn't easy but it must be done. Much of what we do is to 
provide moral support. Those of us who have served in Eastern 
Europe know how important that is for those suffering under a 
totalitarian system to know that others know and care what is 
happening to them. We also know how much regimes of this nature 
crave international recognition and respect to provide them the 
legitimacy they have failed to earn from their own people. So 
we work with other democracies to condemn the repression and 
encourage support for real reform.
    Since last June, the EU, for the first time, is inviting 
dissidents to its official receptions in Havana, much to the 
anger of the Cuban Government. Individual EU governments are 
reviewing their assistance to the regime with Italy suspending 
bilateral cooperation and France redirecting its assistance 
away from the government and to the Cuban people itself. We 
continue our unceasing efforts in international fora such as 
the U.N. Commission for Human Rights. Last April, the U.N. 
Commission for Human Rights passed by a single vote a 
resolution tabled by Honduras to call once again upon Cuba to 
implement the human rights obligations it has freely accepted. 
Secretary of State Powell and other high level State Department 
officials were involved on a daily basis in our efforts to 
support Honduras and the 34 other co-sponsors of the 
resolution. President Bush and Dr. Rice made personal 
interventions with foreign counterparts. Several Members of 
Congress also played important roles in shoring up support and 
for those efforts, we are deeply appreciative.
    As those of you who have been involved with these efforts 
know we offer neither rewards nor threats, rather we appeal to 
the highest principles of our fellow Commission on Human Rights 
members, three-fifths of whom represent democratically elected 
governments. So one might ask why so much efforts is required 
to get a resolution passed there.
    The answer is the Cubans do what they falsely accuse us of. 
They cannot credibly argue that they are in compliance with 
their human rights obligations, so instead they threaten other 
voting members with domestic discord, withdrawal of medical 
workers and so on if they vote to urge Cuba to fulfill those 
commitments. They run campaigns accusing other governments and 
individual leaders of giving in to U.S. pressure or worse. 
Despite these Cuban tactics, Honduras, Costa Rica, the 
Dominican Republic, Guatemala, Peru, Chile and Mexico all took 
courageous stances in support of human rights in Cuba by 
tabling, co-sponsoring and/or supporting the resolution.
    By the same token, we were disappointed that countries such 
as Argentina, Brazil and Paraguay, whose own democratic 
transitions were assisted by international support, chose to 
abstain rather than take position in favor of observance of 
human rights. Especially disappointing is South Africa which 
during its own struggle against the apartheid regime was the 
original beneficiary of what are called item line resolutions 
in the Human Rights Commission and they took a leadership role 
in pressing other African delegations to vote with the Cubans.
    In addition to showing our moral and political support for 
those courageous Cubans who are struggling for democracy, our 
policy is also designed to actively encourage a rapid, peaceful 
transition to democracy in Cuba. There is no reason that the 
Cuban people should not enjoy the freedoms and prosperity that 
now exists in Central Europe, South Africa, Central and South 
America and other places around the world that once languished 
under totalitarian or authoritarian dictatorships. To this end, 
President Bush in October 2003 created the Commission for 
Assistance to a Free Cuba. The Commission's task was to develop 
a proactive, integrated and disciplined approach on how the 
United States can work to hasten a peaceful transition to 
democracy, particularly through breaking the regime's 
information blockade. The Commission was also charged with 
developing contingency plans to assist a free Cuba during such 
a transition should its citizens request such assistance.
    I would emphasize that we do not seek to dictate the terms 
of transition. Cuba's future must be decided by the Cuban 
people. Rather, we look for ways in which we can cooperate as 
friends with the newly free Cuba.
    The Commission report proposes a wide range of actions the 
U.S. Government would be prepared to undertake should a Cuban 
transition government so request. This would include assistance 
to meet critical humanitarian and other important needs early 
in the transition and to initiate the reactivation of the 
economy, to help build essential democratic institutions, both 
in government and in civil society, to help establish reforms 
necessary to stimulate the domestic private sector and lay a 
basis for economic recovery; and to address the degradation of 
its infrastructure and environment which, as in other countries 
freed from communism, have seen serious deterioration in areas 
of water, sanitation, power and telecommunications.
    In addition, the Commission report proposed additional ways 
to empower independent Cuban civil society through material 
assistance and training, including increasing assistance up to 
$41 million over 2 years. The Commission recommended steps to 
expand outreach and expedite the processing of related license 
applications to religious organizations. These organizations 
represent the fastest growing and strongest alternatives to the 
Cuban state in providing basic services and information to the 
Cuban people.
    The fundamental goal of any U.S. assistance to a free Cuba 
must be to empower and respect the sovereign rights of the 
Cuban people. Empowering them will mean improving their 
economic and social well being, helping them reconstruct a 
democratic civic culture through education and institution-
building and supporting them as they transform themselves and 
Cuban society.
    President Bush and Secretary Powell, who chaired the 
Commission, have repeatedly called for an end to repression in 
Cuba. They have insisted that Cubans who seek peaceful change 
and basic human rights and freedoms, be permitted to do so. 
Their call, and that of others in the U.S. Congress, has been 
echoed by many others--by representatives of the European 
Union, by the leaders of democratic governments in Latin 
America, the U.N. Commission for Human Rights and other 
prominent figures and institutions across the world.
    We must continue to support the efforts of those working 
for a better Cuba wherever and whenever we can, whether through 
our outreach to ordinary Cubans or in partnership with like 
minded members of the international community.
    I would like to conclude by stressing the promotion of 
democracy is and will continue to be the central defining 
element of our foreign policy. We will continue to use all 
available bilateral and multilateral tools at our disposal to 
combat threats to democracy and institutionalize democratic 
reforms toward a stable western hemisphere.
    Thank you again for holding this hearing.
    [The prepared statement of Mr. Kozak follows:]
    [GRAPHIC] [TIFF OMITTED] 96090.013
    
    [GRAPHIC] [TIFF OMITTED] 96090.014
    
    [GRAPHIC] [TIFF OMITTED] 96090.015
    
    [GRAPHIC] [TIFF OMITTED] 96090.016
    
    [GRAPHIC] [TIFF OMITTED] 96090.017
    
    [GRAPHIC] [TIFF OMITTED] 96090.018
    
    [GRAPHIC] [TIFF OMITTED] 96090.019
    
    [GRAPHIC] [TIFF OMITTED] 96090.020
    
    [GRAPHIC] [TIFF OMITTED] 96090.021
    
    [GRAPHIC] [TIFF OMITTED] 96090.022
    
    [GRAPHIC] [TIFF OMITTED] 96090.023
    
    [GRAPHIC] [TIFF OMITTED] 96090.024
    
    [GRAPHIC] [TIFF OMITTED] 96090.025
    
    [GRAPHIC] [TIFF OMITTED] 96090.026
    
    Mr. Burton. Thank you, Mr. Kozak.
    Mr. Fisk, did you have a statement you would like to make?
    Mr. Fisk. Mr. Chairman, Ambassador Kozak delivered the 
statement for the Department, so I will defer.
    Mr. Burton. Mr. Mutchler.
    Mr. Mutchler. Thank you, Mr. Chairman.
    U.S. AID Assistant Administrator Adolfo Franco was 
scheduled to appear before you this morning and asked me to 
express to you his regret that he cannot participate. He is 
visiting Haiti today with U.S. AID Administrator Natsios, but 
he asked me to talk to you a little bit about what AID has been 
doing over the past 7 years to help implement Section 109 of 
the Libertad Act of 1996 in close cooperation with the 
Department of State.
    As you know, Mr. Chairman, the AID Cuba Program, which I 
direct, attempts to build solidarity with Cuba's human rights 
activists on the island. It gives voice to Cuba's independent 
journalists, it provides food and medicine to the families of 
political prisoners on the island, it defends the rights of 
Cuban workers and provides direct outreach to the Cuban people. 
Over the past 7 years, the Cuba Program working through U.S. 
non-governmental organizations and U.S. universities, such as 
the University of Miami, Rutgers University and Georgetown 
University, has provided over 2 million books, newsletters and 
other informational materials to the Cuban people, provided 
more than 170,000 pounds of food and medicine and other 
humanitarian relief to the families of political prisoners and 
to other victims of repression in Cuba, provided almost 12,000 
short wave radios to the Cuban people so they can listen 
unhindered to international broadcasts from Radio Marti, the 
BBC, Voice of America, or any other international broadcast and 
published on the Internet via Cubnet.org the reports every week 
from Cuba's independent journalists, the more than 100 
independent journalists actively operating in Cuba today. Those 
reports are also provided in hard copy newsletters to the Cuban 
people every week and every month. Those reports are also 
published in the United States and foreign press.
    As Ambassador Kozak has said very clearly, the continuing 
tragedy of Cuba's political prisoners is an outrage to the 
conscience of the world. President Bush and Secretary of State 
Powell have been very active in bringing this matter to the 
attention of the world community and as Ambassador Kozak said, 
the U.N. Human Rights Commission meeting in Geneva in April did 
call Cuba to account. The Commission again urged Cuba to permit 
a personal representative of the U.N. Human Rights Commission's 
High Commissioner to enter Cuba and inspect the situation 
there. The Castro regime again rejected this longstanding 
request by the United Nations.
    Amnesty International, from whom we will hear today, Human 
Rights Watch, Freedom House and other independent, non-
governmental organizations continue to document the suffering 
of Cuba's political prisoners. The Castro regime beats them, 
deprives them of sleep, subjects them to filthy, crowded, 
unventilated vermin infested cells, houses them with common 
criminals and denies them proper food, potable water and 
adequate medical care.
    According to Amnesty International, Cuba has the highest 
proportion of prisoners of conscience per capita of any nation 
in the world. Many political prisoners, as Ambassador Kozak 
indicated, are seriously ill, yet as a matter of regime policy, 
they are denied appropriate medical treatment. He spoke to you 
about Marta Beatriz Roque, Dr. Oscar Elias Biscet, Oscar 
Espinosa Chepe, Raul Rivero, Manual Vazquez Portal, a very fine 
poet and independent journalist, is also suffering from severe 
medical difficulties.
    Also, the number of political prisoners is increasing. A 
little over 2 weeks ago, on Sunday, June 5, Cuban state 
security broke into the houses of four peaceful activists in 
the Cuban city of Santa Clara. Cuban officials arrested these 
people and took them to state security headquarters and two of 
these activists, the brothers Luis Enrique Junquera Garcia and 
Yamil Sanchez Munoz are still being held in prison unable to 
communicate with the outside world. What is their crime? They 
are members of the Citizens Organizing Committee of Project 
Varela, which as Ambassador Kozak indicated has collected more 
than 30,000 signatures from Cuban citizens throughout Cuba 
calling for a national referendum on basic political and 
economic reforms. Such a petition is authorized even under 
Cuba's communist constitution but Fidel Castro believes it will 
subvert his totalitarian rule. For the past year, he has tried 
and tried without success to eradicate Project Varela and his 
frustration is becoming more and more evident. The Project 
Varela organizers are under extreme pressure and the 
international community must defend them.
    As Castro's nervousness has increased over the past year 
and his poor paranoia has increased, his moral collapse becomes 
even more apparent. Last year, he returned to his long practice 
of arbitrary summary executions in an action that outraged the 
world. He ordered the death by firing squad of three young men 
whose only offense was to steal a motor boat so they could 
escape from Cuba. The Castro Government executed them within a 
few days of their capture after kangaroo court trials from 
which independent observers in the diplomatic community were 
excluded. Not even their mothers were permitted to visit them 
before they died. Their deaths ended a 4-year Cuban moratorium 
on user of the death penalty. Castro suspended use of the death 
penalty in the year 2000 after a huge outcry from the 
international community in that year which shows that he does 
respond to international pressure. In 1999, he executed an 
estimated 20 to 30 people, placing Cuba third in the world in 
state executions on a per capita basis, just behind Iran and 
the Democratic Republic of the Congo.
    The Administrator of U.S. AID, Andrew Natsios spoke 
recently at the University of Miami. He sent a clear message to 
Fidel Castro and the members of his government. He told Fidel 
Castro the Cuban desire for freedom cannot be extinguished and 
he called on all the officials and operatives of the Castro 
regime to stop the human rights abuses. He reminded them that 
the Cuban people will soon hold all of them accountable.
    The U.S. Department of State, I am told, has just placed on 
a visa watch list each of the 300 individuals, judges, police 
men, prosecutors, witnesses who participated in last year's 
Cuban show trials that you referred to, Mr. Chairman, those 
sham trials that convicted 75 human rights activists, 
independent journalists and independent librarians, those 
officials and others who perpetrate those and similar acts of 
injustice will never find shelter in the United States. The 
United States of America is committed to promoting a rapid, 
peaceful transition to democracy in Cuba and as part of that 
effort, U.S. AID, the U.S. Agency for International 
Development, calls on all the people in Cuba and especially 
those who work for the Cuban Government to prepare now for that 
transition by refusing to carry out acts of violence and 
repression and by beginning to show compassion for all those 
whom the Castro regime has imprisoned.
    Thank you for this opportunity to appear before you today. 
I will be happy to respond to any questions you or other 
Members may have.
    [The prepared statement of Mr. Adolfo A. Franco, as 
presented by Mr. Mutchler, follows:]
[GRAPHIC] [TIFF OMITTED] 96090.027

[GRAPHIC] [TIFF OMITTED] 96090.028

[GRAPHIC] [TIFF OMITTED] 96090.029

    Mr. Burton. I think both of you have covered a lot of the 
questions we had to ask to you. The thing that surprises me 
about communist dictators is they don't learn from history. I 
remember when Ceausescu in Romania finally fell and what 
happened to him. I would think the people of Cuba will hold 
Castro and his minions accountable maybe in the like manner 
when there is freedom on that island. Castro can't live forever 
and he can't prop up all those people who are perpetrating 
these atrocities. When the bottom does drop out, Lord help him.
    I have a couple questions and I will yield to my colleague. 
I read the book by Armando Valaderos, Against All Hope, and 
incidentally, I was on a plane and I started crying at the last 
chapter. I think the guy next to me thought there was something 
wrong with me mentally. That book was very vivid in the kind of 
atrocities that take place in those prisons. You touched on 
that a bit, Ambassador Kozak, but is there anything you could 
tell us today that would be a bit more vivid than some of the 
things you told us about? If not, that is OK but I think it is 
important for the record and for history to know these 
atrocities that are taking place are a heck of a lot worse than 
we have seen in Iraq and elsewhere. They are pretty bad. I 
think it is important that the world focus on that.
    Mr. Kozak. You are right, Mr. Chairman. In addition to the 
ones we know well, and I had the pleasure of meeting with 
Armando Valaderos when he first got out. We had lunch at the 
State Department, so I heard some of those stories firsthand. 
Marta Beatriz has had all kinds of medical problems. They 
basically don't treat them on time. One that strikes me though, 
two cases, Gustalar, a long time human rights leader there, his 
brother died because he developed cancer and it went untreated 
for a long, long time. He finally was allowed to leave and come 
to the United Stats but it was too far gone. That is an 
interesting family because they fought with Castro. One brother 
was killed in the Ranma assault, the other one died as a result 
of being in the political prison in Havana.
    I think probably the one that struck me during my time as 
the worse was a lady who was a blind human rights activist and 
they took her to the psychological hospital and gave her all 
kinds of drugs and basically tried to torture her in that way. 
They would use the psychiatric hospitals to harm the people.
    Mr. Burton. But the torture continues even to this day?
    Mr. Kozak. Absolutely.
    Mr. Burton. Has it increased?
    Mr. Kozak. I think that has been the pattern over the last 
few years, with more and more dissidents going in. As David 
mentioned, the more and more frustrated he becomes with not 
being able to stop this kind of activity, the more extreme the 
methods.
    Mr. Mutchler. We also know that the regime harasses the 
families of the prisoners and tries to create confusion in the 
prisoner's mind about the safety and welfare of their children, 
their wives and other members of their families while they are 
held in jail, incommunicado without any access to them. So they 
spread rumors, they cause severe psychological damage as well 
as physical damage.
    Mr. Burton. When they had the human rights vote in Geneva, 
Frank Calzon was beat up by one of the members of the Cuban 
delegation. Can you tell me a little about that real quickly?
    Mr. Kozak. I did not see it myself because I was making a 
statement at the chair but our Ambassador, Kevin Moley, was 
right there as it turned out and observed the whole thing, so I 
had a very reliable source. From what he described to me, Mr. 
Calzon was standing at the bottom of an escalator that leads 
down to where the meeting room is in Geneva, the Cubans had 
just lost the vote, they were very upset. They had a whole 
gaggle of their crew that they had there who were yelling and 
screaming and making threatening gestures against anybody on 
the pro-democracy side. U.N. security guards were standing 
there and were between Mr. Calzon and these Cuban 
demonstrators. All of a sudden, someone comes running down the 
escalator at top speed, a guy who was a member of the official 
Cuban delegation, Calzon's back was to the escalator and this 
guy hit him at full stride right in the back of his head, 
knocked him to the floor, knocked him unconscious. Kevin and 
the U.N. security guards took off after the Cuban, the security 
guards had to use mace to subdue this Cuban guy who was 
fighting them and at that point, the Cuban ambassador, a 
permanent representative, came up and said, let him go, he is 
one of my guys, I will take care of the problem.
    Mr. Burton. Diplomatic immunity?
    Mr. Kozak. Yes.
    Mr. Burton. We have to do something about that when there 
is intentional atrocities or attacks made wherever they occur.
    Mr. Mutchler, just a couple quick questions and I will 
yield to my colleague. How successful are we? They are having 
some success in talking directly with the Cuban people but not 
anybody who is in prisons?
    Mr. Mutchler. Not directly with people in prison. The Cuban 
Government has forbidden even the churches to send clergy to 
the prisons on a regular basis. So it is very difficult to get 
access. Of course the prisoners are imprisoned hundreds of 
miles away from their homes so that their family members find 
it very difficult even when they are permitted to visit to 
arrange transportation and pay for a long trip to the prison. 
That is done deliberately it seems, so it is difficult to get 
contact but some prisoners have been able to smuggle out 
diaries and their writings. Portal, for example, has published 
several on articles that we published on the Internet about 
what his conditions are like inside.
    Mr. Burton. Ms. Ros-Lehtinen, do you have questions?
    Ms. Ros-Lehtinen. Thank you, Mr. Burton, and I thank the 
panelists for being here.
    I know that Mr. Fisk has been working around the clock 
after the Commission report came out about the new regulations 
and we will be hearing a lot about them. There is a great deal 
of interest in our community about the regulations and we thank 
you for the work that you have done and the work the Commission 
members have done and President Bush as well.
    What the Commission has tried to do, as all of us know, is 
to not provide all of those funds that Fidel Castro has been 
receiving from folks who come to the United States, supposedly 
freeing political persecution in Cuba, come to the United 
States and immediately go back and many of them are on 
legitimate family visits because they have a problem with their 
family, someone is ill, but some other people do it to 
celebrate their daughter's 15th birthday party and they plan 
these elaborate parties while the Cuban people are suffering 
and they are staying in these wonderful hotels and essentially 
having family vacations in a country where apartheid is still 
very much the norm because there is one set of life for the 
Cuban natives and another lifestyle for everyone else. Everyone 
else goes to the hotels and enjoys the restaurants and the 
beaches and the pools, and the Cuban people can't even afford 
any of that; but even if they were able to afford it, they 
can't use any of those facilities. So there has been a lot of 
abuse of the travel regulations, a lot of illegal activities 
and folks transporting money back and forth and not for 
humanitarian needs whatsoever.
    The Bush administration has been very strong in always 
saying that humanitarian aid is in no way curtailed. If you 
want to put a container outside of the Rayburn House Office 
Building and fill it with food and medicine, the State 
Department and the folks right in front of us will be more than 
happy to help you transport the food and medicine to Cuba. 
There are no restrictions on sending humanitarian aid to Cuba. 
So those folks who say these new regulations hurt the Cuban 
people, that is totally incorrect because you can help the 
Cuban people all you want and in fact, the Cuban people know 
that there is no country more generous than the United States 
when it comes to food and medicine. If you put all the 
countries together, you sum all the humanitarian aid they send 
to Cuba and it does not equal the amount of humanitarian aid 
that the United States sends to Cuba, so that tells you about 
the true spirit of the American people toward the Cuban people. 
We hate the Castro regime and we love the Cuban people. That is 
shown every day when people come to the United States in 
desperate measures to try to reach these shores of liberty, 
even though they have heard the propaganda for sadly over 40 
years of how the United States is a terrible place and how we 
discriminate against blacks so terribly, we beat up African-
Americans on a daily basis, that is the new line he has been 
using a lot. Then you see the young people who have grown up 
knowing only communism, knowing no other frame of reference and 
they come to the United States because they know that Castro 
has been lying to them all the time.
    Just as we saw with the very moving ceremony of Ronald 
Reagan last week in his memorial service where speaker after 
speaker talked about how he drew the line and he said, Mr. 
Gorbachev, tear down this wall and open up this gate and he 
spoke on behalf of freedom and liberty, so we will see that 
opening taking place in Cuba soon.
    That leads me to my question to Ambassador Kozak because he 
has served in Cuba, he has served in Belarus, he knows about 
the experiences of communist governments. I wanted to ask him, 
based on what you have seen in Eastern Europe and the former 
Soviet Republic as they transformed into democracies, what 
lessons can be learned from that, what can better prepare us in 
supporting Cuban pro-democracy forces and in preparing for the 
inevitable day when freedom will reign in Cuba because who 
thought that Berlin Wall would come down, who thought that the 
Soviet Union would disband? Ronald Reagan had that vision and I 
believe that is the same vision President Bush has. Could you 
tell us about the experiences that you have had in former 
communist governments and how they have evolved?
    Mr. Kozak. Actually one thing that strikes me was one of my 
colleagues in Havana was a Romanian diplomat who had been a 
member of Ceausescu's secret police. Why was he a diplomat with 
a democratic government? He was supposed to spy on the 
dissidents in Romania and instead befriended and helped them, 
so he was OK with the new government.
    He told me the mechanisms of control here are very familiar 
to me, they are exactly as the same as were used in Eastern 
Europe, the Stalinist cookie cutter type mechanisms, but the 
degree of control in Cuba was far greater than anything he had 
seen in the former Soviet Union. He said they control things 
here that we wouldn't have thought of controlling and the 
degree of detail of control is just unbelievable.
    Maybe one lesson I would draw from being in both a country 
still under that kind of oppression and ones coming out of it 
is, people in Cuba love the United States. The chairman is a 
very popular guy because Castro made all the school children 
read the Helms-Burton Act and they don't focus so much on 
Titles 3 and 4, they are looking at Titles 1 and 2 about 
freedom and democracy. So it is not a question of having to 
convince them that their situation is bad, they know it is. It 
is not a question of trying to convince them that a more free, 
open society is a good thing, but I find they have a really 
hard time relating to something like the United States. You see 
people in Eastern Europe and for them, like the people in 
Belarus, the United States is like Mars or something, it is 
such a dream world for them that they can't think of how do we 
get from here to there. I found it useful to use other 
countries that had recently undergone the same kind of 
transition and they would listen. If somebody came from 
Lithuania, right next door, and said we were in the same boat 
as you 10 or 15 years ago and here is what we did and it 
worked, that made sense to them. They could see how do you get 
from here to there whereas if you show them the final result, a 
country that has been democratic for 200 years, they can't make 
the connection. That might be one thing we could do, to try and 
engage more of the newly independent countries that had similar 
experience and learn lessons that way.
    Mr. Fisk. On the diplomatic side, we have found that our 
best friends in discussing freedom for the Cuban people happen 
to be those countries of the former Soviet Bloc makes sense. 
They experienced it firsthand, they know what it is like to 
search around on a radio to hear Voice of America or Radio 
Liberty just as a Cuban tries to find Radio Marti. I have heard 
those anecdotes and Mike has heard them, so we are doing what 
we can to reach out and work with the Central and Eastern 
Europeans in terms of how do we further work to build an 
international community that is focused on the plight of the 
Cuban people? They have been our allies in Geneva, they also 
have been our allies diplomatically working in this hemisphere 
and reaching out to Latin American which I will say in this 
forum has been somewhat missing in action in terms of 
responding to the human rights abuses on the island. That is 
definitely an area in which we would like to see more voices 
speaking out on behalf of Cuban civil society.
    If I can also say this is one reason why when we were 
working on the Commission for Assistance to a Free Cuba, we 
focused on our first two recommendations in the area of 
hastening dealt with the need to empower Cuban civil society 
and second and of equal importance, how do we break the 
regime's information blockade on the Cuban people? Those have 
to go hand in hand. It is not just a matter of the United 
States doing that. Again, it is finding willing friends and 
allies around the world.
    Ms. Ros-Lehtinen. Speaking of that, Mr. Fisk, to break that 
filter of propaganda of Fidel Castro, radio and TV Marti 
transmissions are so important and I know that we have them 
with us here now. How are the plans going for the C-130 so that 
we can broadcast without Castro's jamming? Many say if the 
signal doesn't get through, then we should not transmit which 
is so ludicrous. It is just saying we are going to give up. If 
he does A, then we have to stop doing B. The whole reason we 
are having those transmissions of freedom and information is 
because he has those filters and he jams our signal, so we need 
to get that information out. Just because he jams them does not 
mean that we should give up, that means we should try harder to 
improve the technology.
    I know the Bush administration has done a great job in 
doing that. We had that one fly over and how are the changes 
coming in the technology?
    Mr. Fisk. This is one reason why the Commission focused on 
that and did not just focus on one or two instruments or 
assets, but talked about the range of how we get information, 
better get information into and onto the island, including how 
do we augment and enhance radio and TV Marti? We are in the 
midst of discussions now with the Broadcasting Board of 
Governors and the Department of Defense about that exact 
recommendation on the C-130 deploying it, as well as the 
follow-on recommendation which I would focus the subcommittee's 
attention on, a dedicated airborne platform, something that the 
Office of Cuba Broadcasting and Radio and TV Marti have regular 
access to in terms of getting the signal there.
    Again, I would reemphasize that it is not just that one 
instrument. We are looking at a range of other options to 
increase the information flow to the island because ultimately 
I think the two most potent instruments we have are 
broadcasting and what is referred to as a Section 109 program 
in the Libertad Act. Those are the means that I think will 
ultimately help the Cuban people and hasten the day of freedom 
on the island.
    Ms. Ros-Lehtinen. Speaking of Section 109, that leads me 
then to the question for David. Could you elaborate on the 
success we have had with the Section 109 programs administered 
by U.S. AID? We thank you for that. Explain to the audience 
what that means.
    Mr. Mutchler. Under Section 109, the President is 
authorized to promote democracy building efforts in Cuba by 
providing resources to U.S. non-governmental organizations, 
universities and other non-governmental organizations who have 
expertise in this area and who have contacts on the island, 
throughout the island with the thousands of human rights 
activists who are active in Cuba as well as the hundreds of 
independent libraries on the island, so working very closely 
with the Department of State we have been able to provide 
books, videos, video recorders, VCRs and other informational 
materials to the Cuban people so that they can have access to 
outside information because the Cuban Government blocks or 
tries to block all outside information. That has been 
successful.
    The short wave radios are very successful. I have been to 
Cuba four times, traveled throughout the island and I can tell 
you people really appreciate a small short wave radio with 
rechargeable batteries and a recharger, a very small package, 
but one that gives them instant access to the outside world. I 
have listened myself to these radios in the morning, at night, 
throughout the island, you can get Radio Marti on these radios. 
I have done it. You can get the BBC, you can get Voice of 
America, you can get a whole range of international broadcasts. 
That is very powerful technology for the Cuban people right 
now.
    The Cuban people do not have access to the Internet. We 
want them to have access to the Internet. We are trying to work 
on ways to get them access to the Internet. The interest 
section of the United States in Havana developed a multimedia 
room so that Cubans coming in for visas or other reasons can 
access and surf the Web, can access the Internet, can watch a 
video, can get access to newspapers and that is very, very 
important for the thousands of Cubans who come through the U.S. 
Interest Section every year. We have been participating in that 
program as well.
    These are all important things as well as providing very 
simple food stuffs, medicines, children's Tylenol, children's 
Aspirin to independent organizations on the island and to the 
families of political prisoners and others who share these with 
their neighbors as well as use them for themselves.
    Ms. Ros-Lehtinen. As we know, if you are a tourist in Cuba, 
you don't need to bring your own Tylenol or Aspirin or 
anything, there is plenty of that in all the drugstores. It is 
the Cuban people who have trouble getting all those medicines 
because Castro does have them for the tourists and not for the 
Cuban people.
    One more question, and thanks for your indulgence, Mr. 
Chairman. I wanted to ask Mr. Fisk about the new regulations. 
What is the time line that he thinks they will be implemented, 
the ones the Commission presented to President Bush and that 
President Bush has implemented but as we know, you have to 
publish them and they have to be implemented. When will all the 
regs be done and what will happen next?
    Mr. Fisk. I will get you a more precise answer on this but 
they are to be published this week. We are looking at a June 30 
effective date for the regulatory changes to go into effect. 
That is in the section we talked about in terms of hastening. 
The focus is how do we deny resources to the regime. Castro has 
built up a structure to milk and exploit what are humanitarian 
policies. That is something that came to the Commission's 
attention and we brought that to the President's attention, so 
you will see those going into effect over the next 2 weeks if 
my calendar is right.
    If I can add one other thing to build on David's comment 
because the other part of this isn't just the regulatory side 
or the regime resources, it is looking at how we can increase 
our support to civil society. One of the recommendations the 
President approved was providing up to $29 million more in 
assistance for civil society programs in addition to the 
current $7 million. So we are talking about a fourfold increase 
over 2 years of exactly the kind of programs to get information 
and aid to the Cuban people.
    There we are looking for innovative, cutting edge programs. 
We wanted the ability to complement what AID was currently 
doing but also to see how we can expand that and provide more 
resources because clearly the goal and the mandate from the 
President is an immediate impact, we want to see change as soon 
as possible so none of us have to wait any longer, especially 
the Cuban people, for the aspirations of the Cuban people to be 
fulfilled.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. 
Chairman, for the time.
    Mr. Burton. Ms. Watson, do you have any questions?
    Ms. Watson. I just have a brief statement because I came in 
late and probably a lot of the testimony I wanted to hear has 
already been given but we are here because we are concerned 
about the human rights conditions in Cuba and the U.S. policy 
that results. I saw a new policy issued by the White House 
recently and I had some concerns. To put a complete chokehold 
on Cuba's economy is the wrong approach because it does affect 
the people. The U.S. sanctions of today do not take into 
account changes in the world's power structure.
    Fidel Castro's government is not in line with the U.S. 
doctrine, but without the former Soviet Union as a partner, the 
communist threat has been severely diminished. We can be 
critical but not force our will upon other cultures. Continued 
economic sanctions perpetuate poor conditions for the general 
population in Cuba. In my last visit there, I was very 
interested as to their corporate, agricultural approaches so 
that there could be food for all.
    Although I have some reservations on current U.S. policy, I 
have deep concern over recent human right abuses in Cuba. In 
March 2003, the Cuban Government, as you all know, began a 
massive crack down that resulted in the imprisonment of 
independent journalists and librarians, leaders of independent 
labor unions, leaders of opposition parties and other democracy 
activists. Seventy-five activists were arrested, subjected to 
summary trials, persecutions and given long prison terms.
    On April 11, 2003, the government executed three men who 
had hijacked a ferry in an attempt to reach the United States. 
The executions conducted after a swift and secret trial had 
been condemned around the world and I join in that 
condemnation. On July 14, 2003, the Havana-based Cuban 
Commission for Human Rights in national reconciliation issued a 
report asserting that Cuba held 336 political prisoners 
including the 75 arrested in the March 2003 crackdown.
    Human rights issues and their resolutions are important to 
the relationship between the United States and Cuba. The angst 
between Fidel Castro's government and the United States has 
continued for too many years. The Cuban Government must bring 
its policies in line with international human standards so that 
the human rights of all Cuban citizens are protected. Cuba is 
responsible for the treatment of its citizens but the United 
States has a responsibility to pursue a foreign policy that 
promotes human rights and avoided worsening human conditions. 
The United States 2004 quest for a resolution at the United 
Nations is indeed a fresh approach. I support the inclusion of 
the United Nations in the pursuit of acceptable guidelines for 
relations between different cultures.
    For the rest of the time, I will be listening to see if I 
can gather pertinent information toward those points I raised. 
I yield back the rest of my time and thank you very much.
    Mr. Burton. Thank you, Ms. Watson.
    I think that is all the questions we have for you. I want 
to thank you all very much for being here today. We appreciate 
your testimony.
    Our next panel consists of Jamie Suchlicki, Omar 
Montenegro, Eric Olson and Miguel Reyes. Would you please come 
forward?
    [Witnesses sworn.]
    Mr. Burton. Mr. Suchlicki, we will start with you. We are 
not too strict but if you could stay close to 5 minutes, we 
would appreciate it.

   STATEMENTS OF JAMIE SUCHLICKI, DIRECTOR, CUBAN TRANSITION 
PROJECT, UNIVERSITY OF MIAMI; OMAR LOPEZ MONTENEGRO, EXECUTIVE 
   DIRECTOR, CUBAN AMERICAN NATIONAL FOUNDATION; ERIC OLSON, 
ADVOCACY DIRECTOR, AMERICAS, AMNESTY INTERNATIONAL; AND MIGUEL 
 REYES, STEPSON OF RAUL RIVERO, A POET IMPRISONED IN THE MARCH 
                    2003 DISSIDENT CRACKDOWN

    Mr. Suchlicki. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to be here to discuss Cuba with 
you.
    There are instances in the past where dictators and 
retiring leaders have mellowed with age or have mellowed 
because of incentives or pressures from other governments. 
There is no evidence that this is the case with Fidel Castro. 
As he has become older, he has become more difficult, more 
authoritarian, more repressive of the Cuban people. Cuba is 
undergoing right now, and I think this is important to 
understand the context of what is happening in Cuba now, what I 
call the Chinese type cultural revolution, not unlike that 
revolution that Mao carried out in China before his death in an 
attempt to purify his revolution to make sure that China would 
remain on the path he wanted. That it didn't is a lesson of 
history but Fidel Castro continuously thinks and attempts to 
make sure that once he passes out of this world, his revolution 
will remain within the communist doctrine, not friendly to the 
United States, supporting international terrorism and 
supporting the worst causes in the world.
    The succession, to a certain extent, has taken place in 
Cuba by Fidel Castro passing significant amount of power to the 
military. Today, 60 to 65 percent of state enterprises are run 
by the Cuban military, so the succession to that institution, 
the military, is already affecting Cuba. Raul Castro, Fidel's 
brother, not too young by age, but 3 years younger, controls 
the military and is the heir apparent in Cuba. So it is within 
this kind of cultural revolution, maybe not as violent as the 
Chinese or may be not as public as the Chinese, is that Fidel 
Castro in the past 3 or 4 years has been repressing civil 
society, has been trying to reindoctrinate the Cuban population 
in the ideas of Marxism and Leninism. Cuba is undergoing now 
what Fidel Castro calls the battle of ideas, to try to 
indoctrinate, to rejuvenate, to try to reinvigorate his 
revolution with Marxist-Leninist ideas. So the whole society 
has been reorganized, restructured, reemphasizing the values 
Fidel Castro would like to leave to the future generations and 
prevent any change in Cuba once he disappears.
    I think it is important to emphasize that neither 
punishment, nor inducements have worked with Fidel Castro. The 
Europeans, the Canadians, the Latin Americans have been engaged 
with Cuba for a number of years, hundreds of thousands of 
tourists from those countries have visited Cuba and Cuba is no 
more democratic now than it was 20 years ago. As a matter of 
fact, I am arguing that it is probably more authoritarian, more 
totalitarian now than it was before. So neither engagement nor 
punishments have worked. Unfortunately, there are leaders in 
the world that we cannot negotiate with and cannot make a deal 
with, that they are not subjected to either bribery or 
pressures and therefore, we need to have the patience to stay 
the course, wait until there is a change there and then 
implement our policies.
    I think the preceding members of the panel have discussed 
in detail the numerous abuses that have taken place in Cuba and 
are taking place. One of the ones I would like to point out, 
and in my testimony I expand on all these, in the written 
testimony, is the Internet. Fidel Castro now is clamping 
further the use of the Internet and in a decree he passed a 
week ago, he prohibited state enterprises from importing 
computers, fax machines and spare parts. In other words, he is 
so paranoid about the possible influence of outside forces and 
his mindset is on succession and not permitting any change in 
Cuba that he is repressing even the spare parts for computers 
and fax machines.
    The challenge that we face is how do we try to prevent this 
regime from continuing to abuse the Cuban people? It is a 
difficult challenge. Part of it has to be mobilizing public 
opinion, part has to be working with our allies in Europe, part 
has to be in trying to bring information to the Cuban people. 
So there are a number of measures and I think the 
administration is beginning to introduce some of those that 
will try to influence internal developments, try to bring 
information to the Cuban people and try to put greater pressure 
on the regime not to continue to abuse the Cuban people.
    At the University of Miami, we have a project looking at 
transitions in Eastern Europe and looking at all aspects of 
transition. All of these studies which are more than 40, we 
have created data bases, information, all of these things have 
been sent to Cuba through various means. We want the Cuban 
people to understand the problems of transition, we want them 
to understand what has happened in Eastern Europe and in the 
Soviet Union so we are trying to help penetrate that barrier of 
information that Fidel Castro has created. It is not an easy 
job, it is a very complex job but I think it is important to 
stay the course. I don't think a change in American foreign 
policy now in terms of providing Castro with tourism or aid or 
trade is going to change the course he has set for the Cuban 
people. Castro's policies are independent of American foreign 
policy. What he does is his own interest, in the interest of 
maintaining his revolution even if he disappears and dies 
because he is looking far ahead.
    So succession in Cuba unfortunately is going to be somewhat 
easy and quick, transition is going to be long and difficult 
and that is the challenge we face.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Suchlicki follows:]
    [GRAPHIC] [TIFF OMITTED] 96090.030
    
    [GRAPHIC] [TIFF OMITTED] 96090.031
    
    [GRAPHIC] [TIFF OMITTED] 96090.032
    
    [GRAPHIC] [TIFF OMITTED] 96090.033
    
    [GRAPHIC] [TIFF OMITTED] 96090.034
    
    [GRAPHIC] [TIFF OMITTED] 96090.035
    
    [GRAPHIC] [TIFF OMITTED] 96090.036
    
    [GRAPHIC] [TIFF OMITTED] 96090.037
    
    Mr. Burton. Thank you. I have some questions about that 
when we get to the question session.
    Mr. Lopez.
    Mr. Montenegro. Thank you.
    I want to thank you first for the opportunity to be here to 
testify about what it is like to be living in fear in the 
country where I was born and raised, Cuba.
    When I started in the human rights movement inside Cuba 16 
years ago, this was one of my dreams, to be here 1 day to speak 
on behalf of my brothers and sisters still living in Cuba. 
Thank God I am able to fulfill this part of my dream because 
unfortunately there are a lot of people in Cuba for whom 
freedom of speech is still a goal, an aspiration.
    In a country where people can be sentenced to 28 years in 
prison for speaking their minds, fear is not a feeling to cope 
with from time to time but a permanent condition and an 
effective tool of repression used to stay in power by the most 
repressive system our hemisphere has endured. It instills fear 
because it lacks the ability to inspire hope. This statement 
can be measured in figures and also by the most prestigious 
human rights institution around the world. The Cuban regime 
holds a very objectionable record in this matter which includes 
the following statistics.
    The highest number of prisoners of conscience per capita, 
84, recorded by Amnesty International; the highest number of 
inmates per capita, 888, for ever 100 inhabitants registered by 
the Center for Peaceful Studies; second place on the list of 
the 10 worse places to be a journalist compiled by the 
Committee to Protect Journalists; 1 of the 10 most repressive 
regimes in the world appeared in the Worst of the Worst report 
by Freedom House; second from last, 165th place among 166 
countries on the World Press Freedom Index compiled by 
Reporters without Borders; 153rd place among 166 countries on 
the Index of Economic Freedom prepared by the Wall Street 
Journal and the Heritage Foundation, that is the record of the 
Cuban Government and the facts speak for themselves. They tell 
the story of a society with no chance or to say in the regime's 
own words, only two options, socialism or death. That was the 
message the dictatorship tried to send with the March 2003 
crackdown when 75 activists were sent to prison because they 
challenged the system by standing up for their rights. The 
regime was afraid because they challenged the culture of fear, 
opening spaces and creating new options against the will of the 
government.
    In Cuba, fear does not only mean people being afraid of the 
government, but also the government being afraid of those who 
will not fear any more but at least are capable of moving 
beyond fear. That is the story to be stressed out in Cuba, how 
more and more people are showing they can overcome fear and 
move ahead for a better future.
    Six months after the March crackdown, 14,000 new signatures 
were presented to the national assembly in support of the 
Varela Project. More than a year after the crackdown, the Santa 
Rita Mothers, a group of mothers, wives and relatives of 
political prisoners marched every Sunday in the streets of 
Havana asking for freedom for their relatives in prison. Last 
May 9 on Mother's Day, they gathered in a public park and read 
out loud the names of more than 300 political prisoners in 
Cuba. That is citizenship in motion looking for ways to make 
their voices heard in a repressive society but they cannot do 
it alone. They need our help and support in practical and 
effective ways.
    We need to increase the aid to civil society inside Cuba 
and make sure that this aid gets to the island into the hands 
of the most needy, those who are facing repression, the 
political prisoners and their relatives, the activists, the 
human rights activists and the opposition leaders. Some 
practical ideas can be sending paper, pens, food, clothing and 
medicines to help satisfy their needs and create dissident 
networks. Send a laptop, cellular devices and other advanced 
communications technology to overcome the regime's efforts to 
divide and silence those dissident networks. Radio and TV Marti 
needs to be heard and seen in Cuba in an effort to ensure that 
the Cuban people have access to uncensored news and 
information.
    Mr. Chairman and members of the committee, fear is always 
fueled by mistrust and isolation, the feeling of being alone 
facing a gigantic and overpowering enemy. I know that by 
experience. The regime knows that and that is why they make 
every considerable effort to divide the internal and external 
opposition. I remember that in those early days when not many 
people knew about the so-called dissident movement, every time 
I was detained and questioned by officers of the political 
police, they always said they can kill me and nobody would know 
about it because nobody really cares. That wasn't true then and 
that isn't true now but we need to remove the base of that 
culture of fear which is still trapped in a large part of the 
Cuban population.
    The Noble Peace prize winner, Daw Aung San Suu Kyi, Burma's 
best known human rights leader, once said, ``The only real 
prison is fear, and the only real freedom is freedom from 
fear.'' If we want to really free the Cuban people, we must 
help them to stop living in fear and we must provide them ways 
to start overcoming fear.
    Thank you very much.
    [The prepared statement of Mr. Montenegro follows:]
    [GRAPHIC] [TIFF OMITTED] 96090.038
    
    [GRAPHIC] [TIFF OMITTED] 96090.039
    
    Mr. Burton. Thank you, Mr. Lopez. I will have a couple of 
questions for you in a moments.
    Mr. Olson.
    Mr. Olson. Thank you, Mr. Chairman. I appreciate your 
organizing this hearing and thank you to the members of the 
subcommittee for their continued interest in this very 
important issue.
    It is my pleasure to appear today before the subcommittee 
to discuss the human rights situation in Cuba and in 
particular, the status of 82 Cubans designated as prisoners of 
conscience by Amnesty International. I would like to submit to 
the record an Amnesty International report released in March 
2004 entitled, ``One Year Too Many, Prisoners of Conscience 
from the March 2003 Crackdown.'' The report details the current 
physical and mental state of 75 of the 79 prisoners of 
conscience arrested during the March 2003 crackdown in Cuba.
    Given our rather limited time, I would like to briefly 
summarize parts of this report and other recommendations from 
Amnesty International.
    Last October, I had the opportunity to appear before the 
subcommittee to analyze the crackdown in Cuba on Cuban 
dissidents that began on March 18, 2003. Allow me to highlight 
briefly a few of the main observations we made at that time. 
The March 2003 crackdown was the largest in recent Cuban 
history. Arrests were followed by summary trials and long 
prison sentences, in some cases up to 28 years. The crackdown 
broke what appeared to be a trend away from long term 
detentions for political dissidents in Cuba. What distinguishes 
this crackdown from many previous massive arrests is not the 
number but the laws used to convict dissidents in Cuba. This 
was the first time that the Cuban authorities used the so-
called Law 88 in criminal proceedings. Law 88 officially known 
as the law for protection of national independence and the 
economy of Cuba is a direct response to the perceived U.S. 
aggression with the adoption in the United States of the Cuban 
Liberty and Democratic Solidarity Act of 1996, well known as 
the Helms-Burton Act.
    Let me briefly highlight some of the issues of the 
prisoners of conscience arrested in March 2003. In March 2004, 
Amnesty issued a new report that reviewed the status of 75 of 
the 79 prisoners of conscience arrested in March and called 
attention to a number of troubling issues related to their 
incarceration. Among Amnesty International's findings I would 
like to highlight the following.
    Amnesty International has denounced the Cuban Government's 
practice of deliberately incarcerating the 75 individuals in 
prisons located at extreme distances from their homes and 
families. This makes access to families and legal assistance 
particularly difficult and can be construed as an additional 
penalty imposed upon the prisoners and their families. This 
practice contravenes the United Nations body of principles for 
the protection of all persons under any form of detention or 
imprisonment, known as Principle 20.
    For example, Normando Hernandez Gonzales, who lives in 
Vertientes in the province of Camaguey is serving his sentence 
in Pinar del Rio province, nearly 700 kilometers away, while 
Eduardo Diaz Fleitas from Pinar del Rio is being held in Kilo 8 
prison in Camaguey.
    Amnesty has also received scattered allegations of ill 
treatment by prison guards or by other prisoners reportedly 
with the complicity of prison guards. Such instances would 
contravene Article 4 of the Universal Declaration of Human 
Rights which states that ``No one shall be subjected to torture 
or to cruel, inhumane or degrading treatment or punishment.'' 
In one such case, reports indicate that a prisoner of 
conscience, Victor Rolando Arroyo Carmona, was taken from his 
cell by three prison guards on December 31, 2003 and dragged to 
the floor while reportedly being struck in the face and body. 
Guards also allegedly trapped his leg in a door to immobilize 
him during the beating.
    There are other incidents of abuse but I won't take time 
now to highlight those. I wanted to just say a bit about health 
issues which is also a major concern for prisoners.
    Amnesty International is concerned at numerous reports of 
illnesses among the prisoners which have reportedly been 
aggravated by prison conditions, insufficient access to 
appropriate medical care and at times hunger strikes. The U.N. 
body of principles for the protection of all prisoners under 
any form of detention and imprisonment states that, ``A proper 
medical examination shall be offered to a detained or 
imprisoned person as promptly as possible after his admission 
to the place of detention or imprisonment and thereafter, 
medical care and treatment shall be provided whenever 
necessary.''
    According to reports that we have received, at the time of 
his arrest, Oscar Espinosa Chepe had already been diagnosed 
with chronic cirrhosis of the liver and liver failure and 
bleeding from the digestive tract among other illnesses. Since 
his arrest, his health has reportedly deteriorated. According 
to family members, the deterioration has been due in part to 
the poor conditions in which he is being held including lack of 
running water and lack of clean drinking water as well as by 
inadequate medical attention. While in detention, he has 
reportedly been hospitalized several times due to liver 
problems. In July 2003, his family presented a judicial request 
for his release on the grounds of his ill health. They have 
reportedly received no response from the authorities.
    I would like to say a brief word about some recent releases 
of prisoners. According to information we have received, five 
prisoners of conscience were released from jail just last week. 
Most of them appear to have been released on humanitarian 
grounds for health reasons. Leonardo Bruzon Avila had been in 
declining health for some months because of repeated hunger 
strikes. He along with Carlos Alberto Gonzales, Emilio Leyva 
and Lazaro Rodriguez also were released and have been in prison 
without trial for 27 months. They were not part of the 75 
arrested beginning in March. Miguel Valdez Tamayo, reportedly 
suffering from serious cardiovascular problems, was apparently 
given what is called a ``licencia extrapenal,'' which means he 
continues serving his sentence under house arrest. The others 
have been granted immediate freedom or ``cambio de medidas.'' 
Leonardo Bruzon has reportedly accepted refuge in France but 
has not departed the island.
    While these releases are welcome, they do not satisfy 
Amnesty International's call for immediate and unconditional 
release of all prisoners of conscience. In addition, Amnesty 
International urges the Cuban Government to ensure that the 
newly released prisoners have access to any necessary health 
care services.
    I have a few recommendations but I realize the time has 
expired.
    Mr. Burton. You can submit those for the record and we will 
take a look at them.
    Mr. Olson. I would be glad to.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHIC] [TIFF OMITTED] 96090.040
    
    [GRAPHIC] [TIFF OMITTED] 96090.041
    
    [GRAPHIC] [TIFF OMITTED] 96090.042
    
    [GRAPHIC] [TIFF OMITTED] 96090.043
    
    [GRAPHIC] [TIFF OMITTED] 96090.044
    
    Mr. Burton. Mr. Reyes.
    Mr. Reyes. Good morning to all of you.
    I thank the committee for allowing these Cubans to speak on 
behalf of the Cuban political prisoners.
    In Cuba, freedom of speech and thinking is most horrible. 
The truth is the criminal they fear the most. The United 
Nations Universal Declaration of Human Rights says, ``Nobody 
should be prosecuted for the content of speech.'' I doubt that 
any one of you could support any U.S. Government regulations 
establishing that people write in favor of the government 
cannot speak their mind but people criticizing or denying the 
government cannot. However, that is one of the reasons given by 
the Cuban Government to send the writer, Raul Rivero, to jail 
for the next 20 years. The second reason is that Raul Rivero 
met with top U.S. diplomats in Havana. In the trial, Raul 
Rivero admitted that he had not only met the U.S. diplomats in 
Havana, but also met diplomats from other countries, political 
leaders, journalists, dissident professors at their request 
because they want to know more about Cuba not only the official 
version.
    I hope everyone here agrees that choosing our friends or 
who we invite to our homes or not is a very personal decision. 
However, in Cuba, 75 dissidents are suffering for doing exactly 
that. Since March 18, 2003 when he was arrested, my stepfather 
has lost over 80 pounds of weight because of the bad conditions 
and the small portion of food he receives. For 1 year, he was 
confined in a 6 x 4 cell in which he had to wipe the walls and 
the floor every day because of the humidity. A few weeks ago, 
he was transferred to another location within the same prison 
where he is staying now along with criminal robbers and 
murders. Recently, he was announced with pulmonary emphysema.
    After that, four political prisoners were released due to 
health conditions. Many people in Cuba think they were released 
only because the government feared they could die in prison. My 
stepfather is not the only political prisoner under these 
conditions. There were 74 others arrested between March 18 and 
20 of last year. They joined the more than 250 that were 
already in jail.
    Today, I want to present the answer to Cuban Prime 
Minister's speech before the International meeting in Havana on 
March 24, 2004 by a letter sent by Senor Reyes, president of 
the Center for Social Studies who was condemned to 25 years of 
prison for the same crime as Raul Rivero. First, do you know 
how many prisoners are disabled because they have ingested salt 
and other chemicals because of the rigorous prison system. They 
say that they don't beat the prisoners. I invite them seriously 
to come here and I will show them of the beaten prisoners which 
is known by everybody here including the state security. The 
evidence is here.
    I can't believe that food given to prisoners is adequate. 
The food served here is not even good for the dogs that watch 
the prison perimeters. In most case, it is rotten. There is a 
big business with the food that belongs to the prisoners and 
when someone complains about it and asks for better quality 
food, he takes a chance to be beaten. I have many examples of 
this for whoever wants to know. This is what Mr. Peraser was 
writing to Mr. Rocas in Havana.
    Fortunately, Cuban dissidents are not alone. They have the 
solidarity of many human rights and political organizations 
around the world and this body as well. Many political 
dissidents and their families have food because public and 
private funded organizations are taking care of them.
    I respectfully ask this body to increase the funds for the 
civil society in Cuba. It is true that more than 300 people are 
imprisoned because of their political ideas. It is true also 
that more than 11 million Cubans are suffering but there are 
also thousands of Cubans fighting for democratic change. They 
live in a totalitarian society that controls the media and the 
transportation. The more independent they are, the more of a 
threat they can be. They need international support to spread 
the ideas to the island. They need to update and maintain the 
political conduct with the rest of the world. They need to keep 
an active and efficient representation outside the country. The 
Cuban people need their true friends to liberate our people. 
Only a combination of solidarity, material support and more 
political pressure can achieve that.
    Thank you very much and God bless America.
    Mr. Burton. Thank you, Mr. Reyes.
    Mr. Suchlicki, some of the things you said in your opening 
statement were troubling. You said that you thought there was 
going to be continuity after Fidel Castro dies because he is 
turning over about 65 percent of the state-owned businesses to 
the military. That is very depressing because we have been told 
many times by dissidents and others that when he goes, Raul 
Castro couldn't hold the communist regime together. You don't 
agree with that?
    Mr. Suchlicki. There are two levels of analysis here. One 
is the level of leadership analysis where you look at the 
leadership of Cuba and say, does Raul have the charisma, the 
support, is Raul a good successor for Fidel Castro. Then there 
is another level of analysis which looks at the institutional 
strength of Cuba, the military, the Communist Party, the 
security apparatus. Based on that second type of analysis which 
is the one I follow and look at, we have a unified military in 
Cuba, we have a military that is involved in the economy and 
like I said is running 65 percent of the economy, doing well, 
making money, so how do you get that military out of power and 
back to the barracks? How do you transform that kind of 
society? So I am not so optimistic that once Fidel dies, this 
thing is going to fall apart.
    All of the officers at the higher echelon of the military 
have been nurtured by both Fidel and his brother, Raul. The 
second echelon have also been nurtured by Raul. So you do have 
a military that is loyal to Raul and will support him in a 
succession and a change.
    Mr. Burton. That is the officers in the second tier maybe. 
What about the rank and file military personnel? All they are 
getting is their pay.
    Mr. Suchlicki. You can assume a lot of scenarios. One, that 
the military will collapse or split, that the population of 
Cuba the day Fidel dies, jumps in the street, that there is 
another crisis with the United States and there is a 
confrontation with the United States, but I provide low 
probability to any of those scenarios. My high probability 
scenario, although it is pessimistic and not very optimistic is 
that once Fidel dies, the Politburo of the Communist Party will 
meet, Raul will be appointed and would become Secretary General 
of the party, will continue to be head of the armed forces, the 
Politburo will appoint some civilian leader of Cuba to continue 
to run the government and we will have a joint leadership. 
Whether the population at that point will support it, whether 
that leadership will be willing to provide significant changes, 
what policy initiatives does the United States take at that 
moment to try to encourage change, is the dynamic.
    I don't foresee and I hope I am wrong that once Fidel dies, 
this whole thing will fall apart and we will have an Eastern 
European type revolution in Cuba.
    Mr. Burton. I am one of the senior members of the Foreign 
Affairs Committee in the House and if you have suggestions on 
how we could see positive change down there, any of you for 
that matter, I would like to have you submit those to us so we 
could take a look at them long term.
    Mr. Suchlicki. I would be happy to.
    Mr. Burton. Mr. Lopez, you said something in your remarks 
about getting the proper items, humanitarian aid and other 
things, to the people. One of the problems we have seen in the 
past was when we got stuff down there, even through NGO's, the 
government controls them and Fidel Castro doesn't let those 
products that are very important get to the people. He uses 
those instead for commerce and for bringing tourism to the 
island. The things like Tylenol and others, the people don't 
get.
    You suggested we need to do something to get those items to 
the people. How do you suggest we do that?
    Mr. Montenegro. We are doing it through the Cuban-American 
National Foundation. We send medicines, food, anything to 
dissidents or political prisoners. As a matter of fact, we sent 
a package to Miguel's mother, Ms. Reyes, every month. You have 
to use your own channels, you have to create your own network. 
That is what we are doing.
    Mr. Burton. So you are doing it in a kind of covert way to 
make sure it gets to the people?
    Mr. Montenegro. Yes. You have to avoid the official 
channels because that is what happens, exactly what you said. 
The Cuban Government uses them, selling in the stores, but you 
can use people who are going to Cuba every day on a daily 
basis, tourists from Latin America, from Europe, NGO's that are 
working in Europe and also in Latin America, they are working 
inside Cuba and you can use those channels to send the material 
aid to Cuba.
    The technological devices are also very important because 
inside Cuba, and I have another perspective because I was 
living in Cuba for a long time, the Cuban population admires 
everything that is technological advanced because it is such a 
closed society that when somebody sees a laptop.
    Mr. Burton. But are they allowing the people to get those 
things? I thought Castro was clamping down, saying the people 
couldn't get computers, fax machines and so forth?
    Mr. Montenegro. Yes, but you can send the computer. For 
example, we sent laptops to Vladimir Roca and some of them are 
still working. Some people have cell phones, satellite phones 
in Cuba right now.
    Mr. Burton. But they have to keep that kind of quiet?
    Mr. Montenegro. Yes.
    Mr. Burton. Mr. Reyes, I didn't get from you why your 
stepfather was arrested. He is a poet but what did he do to 
make Castro want him incarcerated?
    Mr. Reyes. His only crime was writing and saying his 
beliefs.
    Mr. Burton. Did he write some poetry that criticized the 
government?
    Mr. Reyes. No. He just was telling the truth, just telling 
what the Castro media, the Castro government doesn't want to 
hear from the people, telling what is happening in Cuba which 
they know what is happening in Cuba but they don't want one 
person saying to the rest of the Cuba, listen I can say this, 
you can follow me. I believe that is why Raul was condemned to 
20 years.
    Mr. Burton. Ms. Watson, do you have any questions?
    Ms. Watson. I am just wondering as Fidel Castro ages and I 
think he has been in office for 44 years and the changing 
circumstances in the world, let me liken this to CARICOM and 
Haiti, could not a group of the nations down in that area along 
with us have the kind of deliberation sessions and meetings 
with Fidel Castro. We were down there toward the end of last 
year and he met our delegation, I guess he is famous for this. 
We started at 9 p.m., he was 6 hours on the television and came 
to meet with us. We got into such a meaty discussion where he 
talked about his detainees and he said, he turned around to us 
and said, well, you have a Constitution and when somebody 
violates the Constitution and the Bill of Rights, what do you 
do? He said, the people I have detained have done A, B and C. I 
don't know how much that could be backed up with fact but we 
had an open discussion which I felt he was very sincere. He has 
a vision for where he wants to take his country and that has 
been the vision of the revolution ever since.
    Since there is no longer a Soviet Union and the other 
countries that were supportive of him, would you think it would 
be effective to bring these neighboring countries together in a 
negotiated dialog with Fidel Castro? Certainly human rights 
offenses cannot be accepted in our hemisphere or anywhere, so I 
think we have some ways of really putting pressure on him. I 
don't think the sanctions are working and they are hurting many 
people.
    I was really big on going back until the atrocities that I 
mentioned before were committed but I do think maybe it is now 
time to seriously get into ongoing discussions. We just lost 
President Ronald Reagan and he was famous for saying tear down 
that wall and then going into some discussions. What do you 
think?
    Mr. Suchlicki. I think it is not an issue of discussions. I 
think we have had discussions with Fidel. The question is, is 
he willing to provide meaningful concessions in exchange for a 
change in American foreign policy. The answer has traditionally 
been no. So we do have a leader that is not really that 
interested in relations with the United States. He would like 
unilateral concessions with the United States, unilateral 
lifting of the ban without him having to provide irreversible 
concessions on Cuba.
    Ms. Watson. So what am I hearing you say, that is not the 
route to take?
    Mr. Suchlicki. Europeans have tried, the Europeans have had 
engagement with Cuba for the past 20 years, have tried to talk 
to Fidel Castro.
    Ms. Watson. That is the past, what do you think will work 
in this climate, in this era, in the present?
    Mr. Suchlicki. I don't think there are leaders that are not 
willing to provide change.
    Ms. Watson. No, no. I would like you to help us. What would 
you suggest, what do you think would work?
    Mr. Suchlicki. I think maintaining the policy, not changing 
U.S. foreign policy, not providing unilateral concessions to 
Fidel Castro unless he is willing to provide reciprocal 
concessions. Hold the policy of the embargo and the ban for the 
time there is a leader there willing to open up Cuba and 
willing to provide concessions. Work with the international 
community to bring about pressure. The Caribbean countries are 
small, poor. Castro is not interested in them. They are not 
going to help. Maybe Brazil would help a little bit, maybe the 
Europeans can help. Try to highlight the violations of human 
rights publicly, keep the spotlight on the violations of human 
rights so the world sees what is happening in Cuba and then you 
have a plethora of overt and covert policies that the U.S. 
Government can follow to accelerate a process of change.
    At the invitation of the chairman, I will be submitting a 
list of suggestions for the U.S. Government to handle. So I 
don't think it is the moment to change policy. Fidel Castro 
hasn't earned anything, so why should we change the policy?
    In Latin America, since the Carter administration, we have 
been consistent in advocating civilian government, human rights 
and democratic government. President Carter intervened in Haiti 
to try to create a democratic government there. President 
Reagan intervened in Grenada to get rid of the thugs that had 
created the communist regime there. President Bush, the first, 
intervened in Panama to bring and restore democracy to that 
country. I am not saying we should intervene militarily in 
Cuba, I am not advocating that but aren't the Cubans deserving 
of the same support on the part of the United States or are the 
Cubans less than other Latin American countries and therefore 
we should resign to have a long term dictatorship in Cuba and 
provide money and tourism and trade and aid which will continue 
the present structures of Cuba, will consolidate the present 
structure of Cuba and commit the Cuban people to a much longer 
dictatorship.
    Ms. Watson. I think you missed something in my query and 
that was what were the benefit.
    I am going to go on to Mr. Lopez. In my query, I said would 
it be worth sitting down having a negotiated kind of 
discussion. When I say negotiated, that means both sides have 
to play. You have to give to get.
    Mr. Montenegro. The Varela Project was a negotiation 
between the Cuban people and Fidel Castro, 25,000 signatures.
    Ms. Watson. Let us broaden it from just the Cuban people to 
the countries.
    Mr. Montenegro. Based on the constitution. Fidel Castro 
says these people were detained by violating the constitution. 
These people who signed the Varela Project were enforcing the 
constitution. They submitted this proposal to Fidel Castro. 
What was the answer? First of all, communism or socialism is 
nonrevocable or nonnegotiable. That is what they put on the 
constitution and after that, they cracked down. That is the 
answer to Fidel Castro to negotiations.
    You asked what we can do right now. I think the dissident 
movement created a basis for what we can do. We have to help 
the civil society because that is becoming a force inside Cuba. 
That is a force that Fidel Castro cannot understand. As I said, 
the government is afraid of people overcoming fear in Cuba 
because the system is based on the culture of fear. By helping 
civil society, helping the human rights activities, we can get 
more and more people involved in asking for change in Cuba. 
That eventually would get into the structure of power that Mr. 
Suchlicki is talking about and maybe we can break the system 
they are trying to create.
    I don't believe Raul Castro has the charisma to be the 
successor of Fidel Castro. I think they are trying to do that. 
Jamie is right on that, they are trying to promote a secession. 
The only way we have to promote peaceful, democratic change in 
Cuba and break that scheme for secession is helping civil 
society, creating another political force in Cuba which is the 
human rights movement, which is nonviolent.
    Ms. Watson. Mr. Olson.
    Mr. Olson. I wanted to address two issues you raised. One 
was the statement of President Castro that the prisoners 
violated the law and therefore it is normal that they would be 
imprisoned. I wanted to look at the case of Raul Rivero as an 
example of why we have a problem with that. On the surface, he 
is right, there is a law, Law 88, that defines certain crimes 
and they are accusing him of violating Article 91 of that penal 
code. The indictment against him, based solely on official 
documents not our interpretation, accuses him of subversive 
activities aimed at affecting the territorial independence and 
integrity of Cuba. It offers no specifics about the actions he 
has taken. It is a very open-ended accusation.
    In other places, it states he disseminated what they call 
false news to satisfy the interests of his sponsors of the 
North American Government. In other words, he was spreading 
news, peacefully, never accused of doing it violently, offering 
an opinion and also in his sentence, it says, ``The accused in 
addition to the facts already described, from 2000 began 
disseminating information via the Inquintro and Abred webpage 
belonging to the International Press Society.'' That is his 
crime, offering news, posting stories on the Web. They are not 
even accusing him of inciting violence or asking for the 
overthrow of the government. They are merely saying he is 
sharing information on the Web and this is their own words.
    For us, those laws themselves do not make international 
standards for freedom of expression. Therefore, we believe Mr. 
Rivero and 82 others are prisoners of conscience because they 
have expressed themselves, whatever their opinion is and I have 
no opinion about their opinion, but they are doing it openly, 
they should be doing it freely and they are making no appeal to 
violence. So we differ strongly with Mr. Castro's 
interpretation of the law. These people are wrongfully 
imprisoned and should be immediately and unconditionally 
released.
    Ms. Watson. Are you an attorney, Mr. Olson?
    Mr. Olson. No, I am not but this is the analysis of our 
organization and I represent the organization here today.
    Ms. Watson. It is very hard to question an individual case 
because we don't know all the circumstances but I am thinking 
in a broader sense and I just asked my staff to research 
Article 91 and let us take a look at it.
    Mr. Olson. If you like, it is quite extensively reviewed in 
our report of last March, essential measures which outlines the 
content of that law and why it is not consistent with 
international standards.
    Ms. Watson. If you have something in writing, I will have 
my staff take a look. If you have a copy, I would appreciate 
it.
    Mr. Olson. Certainly and I would recommend you look at 
that.
    On your other question, I think you are asking a valid 
question. We have recommended among many things that the United 
States reexamine its policy toward Cuba. We do not think it has 
been particularly effective in promoting human rights in Cuba 
and we among our recommendations are not negotiation but 
building a broader and more effective coalition amongst 
European and Latin American nations, including Caribbean 
nations as you said, to both engage and confront the Cuban 
Government on all of these human rights issues.
    What stung Fidel Castro after the March 2003 crackdown was 
not criticism from the United States, that did nothing to hurt 
him. In fact, in many ways, it plays into his hands. What stung 
him was the criticism from longtime allies, Mexico, other Latin 
American nations, other so-called leftists, European 
governments who have maintained close relations. The United 
States should work effectively with them and allow them to take 
the lead because they clearly have much more influence if you 
will over what Mr. Castro does and says.
    I acknowledge that is not negotiation, we are not calling 
for that. That will take a lot of patience and time but in our 
estimation that approach is more likely to be effective than 
the current approach of the U.S. Government.
    Ms. Watson. Thank you. Mr. Reyes.
    Mr. Reyes. Just to give you the last news I have from my 
stepfather, my mother is asking for the last 2 or 3 weeks for 
the Cuban authorities to allow him to have a fan because the 
degree in the cell is 100 degrees. This is hard anywhere and 
the Cuban authorities don't allow him to have the fan. We are 
trying to explain to the friends of Castro, not talking bad 
about Castro himself but just show him the face of those 
people, why they were condemned to 20 years, why they were 
condemned to 25 years, what is the crime. That is the way we 
are trying to approach these governments that still believe in 
the Castro regime and the Castro revolution.
    Ms. Watson. I think what you said, Mr. Olson, was very 
compelling. Those nations, and I know in our conversations, 
Russia was mentioned most often, nations that have helped us 
when you wouldn't help us, that is what he said to us, maybe it 
is those nations we gather together along with CARICOM and 
surrounding nations and have them step up to the plate.
    My staff just handed me the information on Article 91 and 
he seems to be a brilliant mind and I think there is some 
reasoning that needs to be done with him. We call ourselves a 
nation of laws and he said to us, are you aware that we have a 
constitution? It made us look less informed than we should have 
been but yes, I guess we were aware, so I heard the legal mind 
come out. That is why I asked if you were an attorney. He is an 
attorney and he is very clever. I would think we would use his 
own law as the basis for a discussion that would have the input 
from other nations that he cares about who have helped him in 
time of need.
    I would like to see us do something with that approach. I 
guess it was Mr. Suchlicki who said he was going to give us a 
list of proposals he thinks would work. If we consider ongoing 
talks and really using his rule of law, his constitution as a 
basis, I think we could shed some light on does the punishment 
fit the crime, 25 years for publishing something you didn't 
like reading. I think working through his knowledge of the law 
and his own constitutional laws might be one way to broaden the 
conversation and to have it involving other nations he has 
dealt with in the past might be one way to go.
    Mr. Montenegro. I agree with the idea to create an 
international coalition. I think Europe should have a role and 
also CARICOM should play a role even though they are poor, 
small countries because Castro is always trying to portray the 
image that the Cuban problem is a conflict between Cuba and the 
United States. In recent months or in the past 2 years, it has 
become an international problem and that is hurting Castro. I 
agree with Mr. Olson and you can argue with Castro about that 
because he is always going to say the same thing. This is our 
law, we have our own interpretation of what democracy is and 
anything else is interfering with internal affairs in Cuba. So 
this international coalition should be created to put pressure 
on Castro for human rights and civil liberties in Cuba.
    Mr. Burton. Let me add a couple comments. My colleague and 
I sometimes are in very strong agreement with one another and 
other times we have a little disagreement. When I participated 
in writing the Helms-Burton law, the Libertad Act, we did a lot 
of study and research on that and it went on for a couple of 
years. One of the things we found was that he does not adhere 
to international law, he may claim to follow a constitution, 
but the fact is whenever he has a whim about somebody, they go 
into the slammer and they are tortured. I would hope my 
colleague, if she has the time, would read Against All Hope by 
Armondo Valadarez and I will be glad to get you a copy of that 
book because he spent 27 years in a Cuban prison for virtually 
nothing except opposing Castro's views.
    The other thing is a lot of my colleagues have been talking 
about ending the embargo because they say when you end the 
embargo, the people will have a better standard of living. What 
most of my colleagues don't realize is that if a person works 
for a company like one of the big hotel chains there on the 
beaches and are paid $400 in U.S. currency, that money does not 
go to the people working there, the money goes to the 
government and then the government pays the people back with 
$400 pesos which are worth less than $5-$10 a month. So even if 
the embargo were lifted and we started paying people a living 
wage, the money has to go to the government and it is 
recirculated to them in the form of pesos, so the standard of 
living remains the same, $5-$10 a month and that is why they 
are living pretty much in the dark ages.
    We have this debate on the floor of the Capitol all the 
time on whether or not the embargo should be lifted. I would 
love to see the standard of living for every Cuban lifted to 
where they are making $400-$500 a month which could be done if 
there were a free Cuba but as long as the government controls 
the currency, controls where the money goes, the people are 
going to be subservient to the government and they are going to 
have to follow Fidel Castro's edicts. That is where we stand 
today.
    With that, I want to thank you very much for your comments. 
This is not the end of this. I would like to have any 
recommendations you have on how to solve the problem. It is a 
Gordian knot but we are going to continue to work on it until 
we see freedom in Cuba.
    Thank you very much.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                 <all>

</pre></body></html>
